                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Midwest Region




              Audit Report

Implementation of Renewable Energy Programs
                   in USDA




                            Report No. 50601-0013-Ch
                                         August 2008
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




August 14, 2008


REPLY TO
ATTN OF:       50601-0013-Ch

TO:            Thomas C. Dorr
               Under Secretary
               Rural Development

THROUGH:       John M. Purcell
               Director
               Financial Management Division

FROM:          Robert W. Young /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Implementation of Renewable Energy Programs in USDA


This report presents the results of our audit of the Department of Agriculture’s renewable energy
activities. Our audit evaluated the Department’s key internal controls, as well as individual
agency efforts to promote renewable energy projects, monitor program activities, and determine
the effectiveness of renewable energy projects.

The Department’s response to the draft report, dated August 13, 2008, is included as exhibit B,
with excerpts and the Office of Inspector General's position incorporated into the relevant
sections of the report. Based on the response, we have reached management decision on all
recommendations in the report. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by your staff during the audit.
Executive Summary
Results in Brief                    This report presents the results of our audit of the U.S. Department of
                                    Agriculture’s (USDA) efforts to support renewable energy activities. We
                                    initiated this audit because the President and Congress have emphasized the
                                    urgent need for our nation to reduce its dependency on foreign oil and cut
                                    greenhouse gas emissions. This was emphasized through the Energy Policy
                                    Act of 2005, 1 the Advanced Energy Initiative in 2006, and the Energy
                                    Independence and Security Act signed in December 2007. 2 Additionally, in
                                    May 2007, the President directed USDA and other agencies to create
                                    regulations that would cut gasoline consumption 20 percent over the next
                                    10 years and reduce greenhouse gas emission from motor vehicles. We
                                    expect this emphasis to continue in the future. For instance, the 2008 Farm
                                    Bill, which was pending at the time of our review, includes energy
                                    provisions.

                                    The Biomass Research and Development Act of 2000 3 and the 2002 Farm
                                    Bill, Title IX, Energy 4 also significantly affected USDA’s role in promoting
                                    renewable energy. Through this legislation, Congress charged USDA with a
                                    leadership role towards advancing renewable energy activities, particularly in
                                    the biomass field. This included tasking USDA and the Department of
                                    Energy (DOE) to coordinate renewable energy activities Governmentwide
                                    through the Biomass Research and Development Board.

                                    In December 2005, the Secretary of Agriculture established an Energy
                                    Council within USDA. The Energy Council’s primary role is to assist the
                                    Secretary in developing policy and coordinating renewable energy activities.
                                    For instance, it supported USDA’s leadership role within the Federal
                                    Government by coordinating, along with DOE, the Advancing Renewable
                                    Energy conference in St. Louis, Missouri, in October 2006, which included
                                    the President as a guest speaker. That conference sought to build and
                                    strengthen partnerships that would accelerate the commercialization of
                                    domestic renewable energy industries.

                                    We focused much of our attention on USDA’s renewable energy activities
                                    immediately preceding and subsequent to the enactment of the Energy Policy
                                    Act and the President’s Advanced Energy Initiative. In fiscal years
                                    (FY) 2006 and 2007, USDA reported over $214 million and $197 million,
                                    respectively, in renewable energy activities to the Office of Management and
                                    Budget (OMB). Of this amount, Congress appropriated over $61 million and
                                    $76 million, respectively, specifically for renewable energy activities

1
  Public Law (PL) 109-058.
2
  PL 110-140.
3
  PL 106-224, as amended by PL 109-58.
4
  Farm Security and Rural Investment Act, PL 107-171.

USDA/OIG-A/50601-0013-Ch                                                                                   Page i
                   legislated through Title IX of the 2002 Farm Bill. Agency managers
                   distributed the remaining $153 million and $121 million, respectively, from
                   existing program resources.

                   Our audit objective was to evaluate USDA’s efforts to emphasize renewable
                   energy activities as directed by existing legislation and the President’s
                   Initiative. We found that USDA agencies funded many worthwhile projects
                   that had a positive impact in the renewable energy area. However, we
                   identified several issues that, if addressed, could improve USDA’s efforts in
                   reducing the nation’s dependence on foreign oil and in powering its homes
                   and businesses with renewable energy sources. Those issues are summarized
                   in the following sections.

                   Departmentwide Renewable Energy Strategy Needed

                   USDA does not have a renewable energy strategy for all agencies and
                   programs within the Department. Such a strategy should include program
                   goals for agency managers, a detailed course of action to accomplish those
                   goals, and measures to evaluate performance. In March 2008, the Department
                   issued a strategy related to research, education, and extension services.
                   However, that strategy does not include agencies and programs that fund
                   renewable energy commercial projects.

                   Without a strategy that includes all agencies and programs within the
                   Department, agency managers independently (1) determine funding priorities,
                   (2) develop selection criteria, and (3) assess the impact of renewable energy
                   projects. Consequently, agency managers for programs that did not receive
                   funds appropriated for renewable energy have not placed sufficient emphasis
                   on projects in that area. Also, program managers have not analyzed proposed
                   commercialization projects to identify those that would provide the most
                   benefit for funds expended.

                   We asked a departmental official why more funds were not used for
                   renewable energy projects from programs that were not appropriated funds
                   for that purpose. The official stated that all types of projects have benefits
                   and agencies can only fund projects based on the number of applications
                   received. The official also stated that USDA bases its policy on flexibility
                   rather than emphasis on a specific area. The official added that renewable
                   energy is a complicated area, and the success of the effort is largely
                   dependent on the private sector.

                   We did find that the Forest Service (FS) made an effort to place emphasis on
                   renewable energy in two regions. FS developed a national strategy to use
                   woody biomass and directed its regions to designate an official to coordinate
                   efforts. Two of the nine FS regions established full-time coordinators, whose

USDA/OIG-A/50601-0013-Ch                                                                  Page ii
                   efforts resulted in as many woody biomass grants as the other regions
                   combined.

                   In FY 2006, agency managers did not noticeably increase funding from past
                   years for renewable energy activities from programs that were not
                   appropriated funds for that purpose. One reason is that agency managers at
                   the Rural Utilities Service (RUS), FS, and the Natural Resources
                   Conservation Service (NRCS) did not use criteria that gave priority to
                   renewable energy projects. At those agencies, managers used normal program
                   criteria based on the program’s mission to select a project.

                   Rural Business-Cooperative Service (RBS) officials developed selection
                   criteria for programs where funds are not appropriated for renewable energy
                   that benefited project applications involving renewable energy. However,
                   Rural Development officials in the two States we visited did not use the
                   criteria. Instead, they encouraged applicants to use the Renewable Energy
                   and Energy Efficiency Improvement (Section 9006) Program, which had
                   funds specifically appropriated for renewable energy projects. This would not
                   have been a concern if the Section 9006 Program had sufficient funds, which
                   it did not, for all renewable energy applications. As a result, we found
                   26 eligible, but unfunded, applications at the 2 States in our review for FYs
                   2005 and 2006. This point is important because the number of unfunded
                   applications nationwide increased from 182 in FY 2006 to 421 in FY 2007.

                   In addition, we found that none of the four agencies in our review that funded
                   commercialization projects developed procedures to conduct analyses to
                   identify projects that would provide the most benefit for renewable energy
                   funds expended on the project. In the research area, we identified several
                   Agriculture Research Service (ARS) projects that benefited already mature
                   segments of the ethanol-producing industry rather than developing new and
                   innovative technologies in the field of renewable energy.

                   Also, no agency involved in commercialization has developed procedures to
                   analyze the results of completed projects to compare expected and actual
                   renewable energy results. Thus, there is no method to determine if projects
                   accomplished stated goals and whether agency collective efforts were
                   accomplishing anything significant. Our analysis of unfunded renewable
                   energy applications for RBS programs from FYs 2005 to 2006 disclosed that
                   many appeared to have more potential than projects actually funded by the
                   agency. During our audit, RBS officials stated they are developing
                   procedures to perform such analyses for the Section 9006 Program. However,
                   they do not have plans to develop similar procedures for programs where
                   funds are not appropriated for renewable energy activities.




USDA/OIG-A/50601-0013-Ch                                                                 Page iii
                                      Funds Used for Intended Purposes, but Procedures to Prevent Duplicative
                                      Funding are Absent

                                      One important aspect of our audit work was to verify that funds reported as
                                      expended for renewable energy activities were actually used for that purpose.
                                      Another was to determine if any duplication of funding for renewable energy
                                      research and commercialization had occurred among USDA agencies. At the
                                      6 agencies we visited, we examined records related to 137 renewable energy
                                      projects funded by the Department’s various programs. 5 Additionally, we
                                      visited 89 commercial renewable energy projects in 7 States. Overall, we
                                      found that renewable energy funds were spent appropriately. We found no
                                      instances where funds specifically appropriated for renewable energy
                                      activities were diverted to other purposes; neither did we find any duplication
                                      of funding between individual projects.

                                      However, we did conclude that duplicate funding and efforts could occur
                                      within the Department’s programs. To date, the Department has not issued
                                      guidance on how agencies are to coordinate to prevent duplicate funding of
                                      similar renewable energy projects. There were no internal controls that
                                      compared objectives and data from funded projects to the objectives and
                                      supporting information relating to applications for proposed projects.

                                      There are at least six agencies within the Department with programs that fund
                                      similar renewable energy projects. In the commercialization area, there are
                                      4 agencies (RBS, RUS, FS, and NRCS) with 11 programs that fund similar
                                      types of renewable energy projects. For example, RUS’ Electric Loan (EL)
                                      Program and High Energy Cost Grant (HECG) Program and three RBS
                                      Programs provided funding for wind projects. RUS’ HECG and EL Programs
                                      and RBS’ Section 9006 and Value-Added Producer Grants Programs all
                                      funded solar projects. Also, RBS has three programs that, along with RUS’
                                      EL Program and NRCS’ Environmental Quality Incentive and Conservation
                                      Innovation Grants Programs, funded anaerobic digesters. In the research area,
                                      there are no controls in place to prevent the Cooperative State Research,
                                      Education, and Extension Service from funding research that would duplicate
                                      efforts at ARS and FS.

                                      Moreover, we found that most agency officials are not checking for
                                      duplication of funding or efforts. Agency officials we questioned said they
                                      had not communicated with each other about specific projects being funded
                                      by their respective programs to check for duplication. Some agency officials
                                      said they checked for duplication within their own agency, however we did
                                      not find evidence of these checks. Officials at higher levels within the
                                      Department stated there were discussions about duplication but there are no
                                      procedures to check for duplication.

5
    We did not review records for NRCS.

USDA/OIG-A/50601-0013-Ch                                                                                     Page iv
                                       RBS is the only agency that we are aware of that contacted another Federal
                                       Department (DOE) about its commercial renewable energy activities.
                                       However, that contact was limited to sharing applicant lists for the Section
                                       9006 Program and not activity for all agency programs.

                                       Renewable Energy Funding Understated

                                       In FY 2006, the Department reported to OMB that the seven agencies in our
                                       review had over $207 million in renewable energy funding. 6 Our audit
                                       disclosed that this figure should have been reported at a much higher amount,
                                       potentially reaching $304 million. The understatement occurred because
                                       agencies had not reported renewable energy funds according to the guidelines
                                       provided to them by the Office of Budget and Program Analysis (OBPA).

                                       Specifically, some agency officials either had not (1) used the criteria
                                       contained in OBPA’s guidance to identify renewable energy funding,
                                       (2) distributed OBPA’s guidance to officials delegated the responsibility to
                                       identify renewable energy funding, or (3) performed sufficient reviews to
                                       identify renewable energy funding. We attributed these conditions to agency
                                       officials not fully understanding reporting requirements, not placing
                                       sufficient emphasis on obtaining full and complete information, and not
                                       having controls in place to ensure the information was correct.

                                       USDA’s Renewable Energy Outreach System Needs Modification

                                       The Department’s web-based system to promote renewable energy programs,
                                       the Energy Matrix, is confusing and did not include important program
                                       information. Also, there is no information regarding the extent of use by
                                       applicants. The Department has not ensured the clarity and accuracy of all the
                                       information and has not built measures into the system, such as a counter, to
                                       determine if the system is being used by applicants. As a result, Department
                                       officials are unable to determine the system’s effectiveness. An Energy
                                       Council official stated that the system is new and still under development.

Recommendations
In Brief                               We recommend that the Energy Council and the Office of the Under
                                       Secretary for Rural Development develop and implement a USDA renewable
                                       energy strategy for all agencies and programs within the Department. While
                                       USDA’s main responsibility is not in the renewable energy field, it does have
                                       a leadership role in this area. A comprehensive Departmentwide strategy
                                       would ensure that the expected large influx of renewable energy funding in
                                       the near future would be used in the most effective manner. We also
                                       recommend that Department officials establish procedures to (1) ensure that
                                       renewable energy funding is accurately identified and reported to OMB,

6
    OBPA did not include amounts for the Farm Service Agency and the Rural Utilities Service. (See Finding 3.)

USDA/OIG-A/50601-0013-Ch                                                                                         Page v
                   (2) prevent and detect duplicate funding within USDA and other Government
                   agencies, and (3) revise the Department’s Energy Matrix.

                   Agency Response

                   In their response, dated August 12, 2008, departmental officials agreed with
                   the findings and recommendations contained in the report. We have
                   incorporated applicable portions of the response, along with our position, in
                   the Findings and Recommendations section of this report. The Department’s
                   response is included in its entirety as exhibit B of the report.

                   OIG Position

                   We agree with the corrective actions the Department plans to take and have
                   reached management decision on all recommendations in the report.




USDA/OIG-A/50601-0013-Ch                                                                Page vi
Abbreviations Used in This Report

ARS               Agricultural Research Service
B&I               Business and Industry
CRIS              Current Research Information System
CSREES            Cooperative State Research, Education, and Extension Service
DOE               Department of Energy
EL                Electric Loan
FAADS             Federal Assistance Awards Data System
EQIP              Environmental Quality Incentive Program
FSA               Farm Service Agency
FS                Forest Service
FY                Fiscal Year
GLS               Guaranteed Loan System
HECG              High Energy Cost Grant
NRCS              Natural Resources Conservation Service
OBPA              Office of Budget and Program Analysis
OIG               Office of Inspector General
OMB               Office of Management and Budget
PL                Public Law
RBS               Rural Business-Cooperative Service
RBEG              Rural Business Enterprise Grant
RBOG              Rural Business Opportunity Grant
REDLG             Rural Economic Development Loan and Grant
RUS               Rural Utilities Service
Section 9006      Renewable Energy and Energy Efficiency Improvement
USDA              U. S. Department of Agriculture
VAPG              Value-Added Producer Grant
WBUG              Woody Biomass Utilization Grant




USDA/OIG-A/50601-0013-Ch                                                         Page vii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report .....................................................................................................vii

Background and Objective .................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1: Renewable Energy Strategy ........................................................................................... 5

        Finding 1             Guidance Defining Goals, Objectives, and Performance Measures Needed
                              to Ensure Greater Emphasis on Renewable Energy Activities ............................... 5
                                  Recommendation 1 ........................................................................................ 12

    Section 2: Duplication of Funding ................................................................................................. 14

        Finding 2             Funds Used for Intended Purposes, but Policies and Procedures to Prevent
                              Duplicative Funding are Absent............................................................................ 14
                                 Recommendation 2 ........................................................................................ 17
                                 Recommendation 3 ........................................................................................ 17
                                 Recommendation 4 ........................................................................................ 17

    Section 3: Inaccurate Reporting ..................................................................................................... 19

        Finding 3             USDA Underreported Renewable Energy Funding to the Office of
                              Management and Budget....................................................................................... 19
                                 Recommendation 5 ........................................................................................ 21
                                 Recommendation 6 ........................................................................................ 22
                                 Recommendation 7 ........................................................................................ 22

    Section 4: Outreach Efforts............................................................................................................. 24

        Finding 4             USDA’s Web-Based Renewable Energy Outreach System Needs
                              Modification .......................................................................................................... 24
                                 Recommendation 8 ........................................................................................ 25
                                 Recommendation 9 ........................................................................................ 25

Scope and Methodology........................................................................................................................ 27

Exhibit A – Agencies and Programs with Renewable Energy Activity ........................................... 31

Exhibit B – Agency Response............................................................................................................... 33


USDA/OIG-A/50601-0013-Ch                                                                                                                   Page viii
Background and Objective
Background         Based on our nation’s increasing dependence on foreign oil and its potential
                   to cause environmental damage, the President directed members of his
                   administration to emphasize renewable energy activities within their
                   respective programs. Congress tasked the U.S. Department of Agriculture
                   (USDA) to take on a leadership role in the renewable energy area as co-chair
                   of the Governmentwide Biomass Research and Development Board.

                   Congress has enacted legislation in the last few years that had a significant
                   impact on renewable energy activities within USDA. This included the
                   Biomass Research and Development Act of 2000; the 2002 Farm Bill, Title
                   IX, Energy; and the Energy Policy Act of 2005. In 2006, the President
                   proposed measures and goals to change the way the nation fuels its vehicles
                   and powers its homes and businesses through the Advanced Energy Initiative.
                   The Initiative directly impacted USDA by calling for cellulosic ethanol to be
                   cost competitive with corn-based ethanol by 2012.

                   In May 2007, the President directed USDA and other agencies to create
                   regulations that would cut gasoline consumption and greenhouse gas
                   emission from motor vehicles, by using his “Twenty in Ten” plan to reduce
                   U.S. gasoline consumption by 20 percent over the next 10 years. In
                   December 2007, the President signed the Energy Independence and Security
                   Act, which requires fuel producers to use at least 36 billion gallons of biofuel
                   by 2022. The 2008 Farm Bill, pending at the time of our review, also contains
                   energy provisions.

                   In order to provide better renewable energy leadership, in December 2005,
                   the Secretary of Agriculture established an Energy Council within USDA.
                   The Energy Council is chaired by the Under Secretary for Rural
                   Development and has four committees: Commercialization; Research and
                   Development; International; and Communication and Outreach. As of
                   October 2007, the Energy Council had met four times. The committees have
                   met more frequently. In addition, the Energy Council has a Coordinating
                   Committee, chaired by the Deputy Under Secretary for Rural Development
                   and comprised of key senior staff from several agencies that meets weekly to
                   coordinate departmental renewable energy activities. The primary role of the
                   Energy Council is to assist the Secretary in developing policy and
                   coordinating renewable energy activities within the Department.

                   The Energy Council developed the USDA Energy Matrix and was the
                   impetus behind the reporting requirements of the Office of Budget and
                   Program Analysis (OBPA) on renewable energy funding. It also supported
                   the Department’s leadership role within the Federal Government by

USDA/OIG-A/50601-0013-Ch                                                                    Page 1
                   coordinating efforts such as the Advancing Renewable Energy conference
                   held in St. Louis, Missouri, in October 2006.

                   That conference sought to help build and strengthen partnerships that will
                   accelerate the commercialization of domestic renewable energy industries.
                   The specific goals for the conference included:

                      •    Identifying major issues, including partnership opportunities, facing
                           decision makers both within Government and in the private sector;

                      •    Identifying critical pathways to rapid deployment of renewable energy
                           technologies, recognizing any issues affecting these pathways and
                           then making policy recommendations for resolving these issues;

                      •    Examining policy incentives involving tax credits, loan guarantees,
                           expedited approval processes and other measures to increase
                           certainty, reduce risk, and accelerate the deployment of new energy
                           sources; and

                      •    Joining with other stakeholders to strengthen and expand current
                           energy infrastructure leading to the continued growth and
                           diversification of our nation’s renewable sources of energy.

                   OBPA, together with input from the USDA Energy Council and the Office of
                   Management and Budget (OMB), developed guidance related to renewable
                   energy activities for dissemination to all agencies for the purpose of
                   compiling the Department’s activities. For the period fiscal years
                   (FY) 2001 through 2007, USDA reported over $1.6 billion in renewable
                   energy activities to OMB as follows:

                           Fiscal Year Reported Renewable Energy Activity (millions)
                              2001                       $154.3
                              2002                       $224.6
                              2003                       $283.5
                              2004                       $293.1
                              2005                       $242.1
                              2006                       $214.2
                              2007                       $197.1

                   Between FYs 2001 and 2007, Congress appropriated over $774 million in
                   funds specifically for renewable energy programs legislated through the
                   2002 Farm Bill. Agency managers directed another $835 million from other
                   program funds for renewable energy purposes. The funds from both sources
                   financed a wide range of commercial renewable energy activities including

USDA/OIG-A/50601-0013-Ch                                                                 Page 2
                                     132 ethanol and biodiesel facilities, 130 wind and 22 solar projects,
                                     92 anaerobic digesters, and 7 landfill recovery systems. 7

                                     The Department provided more than $112 million for renewable energy
                                     research projects in FY 2006 and almost $545 million in incentive payments
                                     between FYs 2001 and 2006 to biodiesel and ethanol producers.

                                     Nine USDA agencies, administering 29 programs, currently take part in
                                     renewable energy activities. (See exhibit A for a list of agencies and
                                     programs.) These agencies are:

                                           •    The Rural Business-Cooperative Service, which provides the largest
                                                outlays for renewable energy commercial projects, much of which are
                                                appropriated specifically for this purpose by Congress;

                                           •    The Rural Utilities Service, which provides funding for renewable
                                                energy projects through existing electric generation, transmission, and
                                                distribution programs;

                                           •    The Farm Service Agency, which provided incentive payments to
                                                ethanol and biodiesel producers;

                                           •    The Agricultural Research Service and the Cooperative State
                                                Research, Education, and Extension Service, which either fund or
                                                perform renewable energy research;

                                           •    The Natural Resources Conservation Service, which provides funding
                                                and technical assistance for a variety of renewable energy systems
                                                related to conservation and energy efficiency;

                                           •    The Forest Service, which provides grants for small-scale woody
                                                biomass energy systems linked to sustainable forest restoration and
                                                performs research in the renewable energy area;

                                           •    The Office of the Chief Economist, which funds biodiesel education
                                                and outreach activities, and designates and labels biobased products
                                                for preferred Federal procurement within the Federal Government;
                                                and

                                           •    Departmental Administration, which provides policy and guidance to
                                                USDA agencies to implement the alternative fuel use and petroleum
                                                reduction goals of the Energy Policy Act, and implements the
                                                BioPreferred Procurement Program within USDA.

7
    2007 Farm Bill Theme Paper, Energy and Agriculture, August 2006.

USDA/OIG-A/50601-0013-Ch                                                                                        Page 3
Objective          Our objective was to evaluate the Department’s efforts to emphasize
                   renewable energy activities as directed by existing legislation and the
                   President’s Advanced Energy Initiative. Specifically, we examined the
                   Department’s planning, coordination, and monitoring actions. This included
                   an assessment of major internal controls over the eligibility, processing, and
                   issuance of renewable energy funds.




USDA/OIG-A/50601-0013-Ch                                                                  Page 4
Findings and Recommendations
Section 1: Renewable Energy Strategy

Finding 1          Guidance Defining Goals, Objectives, and Performance Measures
                   Needed to Ensure Greater Emphasis on Renewable Energy
                   Activities

                   Agency managers for some programs have not (1) sufficiently emphasized
                   renewable energy activities, (2) used selection criteria that focused on
                   renewable energy or on the best renewable energy projects to fund, and
                   (3) analyzed proposed and completed projects to determine those that would
                   provide the greatest benefits. Department-level officials have not developed a
                   renewable energy strategy for all agencies and programs within the
                   Department that would guide agency managers and include Departmentwide
                   goals, a detailed course of action to accomplish those goals, and measures to
                   evaluate performance. Thus, while the Department has accomplished much
                   over the past 5 years, it could do more to reduce our nation’s dependence on
                   foreign oil and to power our homes and businesses with renewable energy
                   sources.

                   Recent legislation, in particular the Energy Policy Act of 2005, and the
                   President’s Advanced Energy Initiative emphasized the need for Federal
                   agencies to increase program support of renewable energy activities. The
                   President also stated that Federal agencies should support activities that
                   provide the greatest impact on developing new sources of renewable energy.
                   As such, we focused much of our attention on departmental activities during
                   fiscal years (FY) 2005 and 2006.

                   We expect the emphasis on renewable energy to continue. In May 2007, the
                   President directed USDA and other agencies to create regulations that would
                   cut gasoline consumption by 20 percent over the next 10 years and
                   greenhouse gas emission from motor vehicles. In December 2007, the
                   President signed the Energy Independence and Security Act, which included
                   provisions that will directly impact USDA, such as the expressed goal that
                   25 percent of total energy consumed should come from agriculture, forestry,
                   and working lands by 2025. In addition, the 2008 Farm Bill, which was
                   pending at the time of our review, includes energy provisions.

                   In FY 2006, agency managers of commercial and research programs that
                   were not appropriated funds for renewable energy provided nearly
                   $153 million for that purpose. This was only about 3 percent of the almost
                   $5 billion in total expenditures from those programs. Agency managers of
                   those programs stated that they followed requirements for making loans and
                   grants, or determining research to fund. They did not make special provisions
                   for renewable energy projects.
USDA/OIG-A/50601-0013-Ch                                                                  Page 5
                                    We confirmed with a Rural Development official that the Department has not
                                    instructed agency managers to make special provisions for renewable energy
                                    activities. For the Rural Business-Cooperative Service (RBS) Renewable
                                    Energy and Energy Efficiency Improvement (Section 9006) Program, which
                                    had funds appropriated for renewable energy activities, we found that agency
                                    officials had not established procedures to analyze proposed projects to
                                    ensure that the most beneficial projects were funded.

                                    We reviewed the USDA Strategic Plan to determine the extent of the
                                    guidance it provided on renewable energy. We found that renewable energy
                                    is included in Strategic Goal 2, “Enhance the Competitiveness and
                                    Sustainability of Rural and Farm Economies” and in Strategic
                                    Goal 3, “Support Increased Economic Opportunities and Improved Quality of
                                    Life in Rural America.” 8 However, the methods for accomplishing these
                                    goals are broad and general and do not provide agency managers with
                                    specific actions needed to accomplish them. Some general strategies for
                                    achieving the goals are to focus existing programs to encourage increased use
                                    of biomass, biofuels, and bioproducts; increase the amount of ethanol
                                    produced through cellulosic conversion technology; and implement multiple
                                    strategies to increase the use of biobased products.

                                    In October 2007, we discussed the issue of a specific renewable energy
                                    strategy with Rural Development officials who stated the Energy Council is
                                    developing a Departmentwide research and development strategy that will
                                    include specific goals and objectives for renewable energy. In addition, they
                                    said that the Energy Council was waiting for the Biomass Research and
                                    Development Board to issue a research and development biofuel plan and for
                                    the reauthorization of the Farm Bill before finalizing the Department’s
                                    research and development strategy.

                                    In March 2008, despite the Biomass Research and Development Board not
                                    having issued its plan, the Department issued an overall strategy for
                                    renewable energy activities related to research, education, and extension
                                    services. However, the Energy Council has not completed a Departmentwide
                                    strategy for agencies and programs that fund renewable energy commercial
                                    development projects. At the exit conference, officials stated since the
                                    issuance of the Administration’s Farm Bill proposal, their top priority has
                                    been the reauthorization of the Farm Bill.

                                    Without a comprehensive renewable energy strategy that includes all
                                    programs within the Department, agency managers are left to determine
                                    funding priorities, develop selection criteria, and assess the impact of
                                    renewable energy projects on their own. We had concerns with agency

8
 Goal 2, Objective 2.1 “Expand Domestic Market Opportunities” has performance measures related to increasing the amount of ethanol consumed and
biodiesel produced in the United States along with increasing the number of products designated under the Federal Biobased Products Preferred
Procurement Program.

USDA/OIG-A/50601-0013-Ch                                                                                                                 Page 6
                   actions in all three of those areas. In particular, they had no strategy to target
                   or identify where the funds should be spent and to determine what would be
                   the most beneficial projects to fund in relation to other projects. The
                   following sections describe our concerns in detail.

                   More Emphasis Could be Placed on Renewable Energy Activities in
                   Programs Where Funds Were Not Appropriated for That Purpose

                   We reviewed renewable energy activities for 14 programs at 6 agencies
                   during the period FYs 2005 and 2006 to determine the level of funding
                   agency managers were expending in the area and to determine if they had
                   increased funding after the Energy Policy Act and the President’s Advanced
                   Energy Initiative. (See exhibit A for programs included in our review.) We
                   found that many agency managers had not increased funding for renewable
                   energy activities from FYs 2005 to 2006.

                   The following examples indicate that the percentage of funds being expended
                   on renewable energy projects is not very large.

                      •    Three of the Rural Business-Cooperative Service’s (RBS) five
                           programs expended less than 7 percent of total program expenditures
                           in FY 2006 on renewable energy projects (e.g., the Rural Business
                           Enterprise Grant (RBEG) Program provided 1.3 percent for renewable
                           energy projects in FY 2006).

                      •    The Rural Utilities Service (RUS) Electric Loan (EL) Program
                           expended no funds for renewable energy in FY 2006.

                      •    RUS’ High Energy Cost Grant (HECG) Program spent
                           15.6 percent of funding ($7.3 million of $46.8 million expended) in
                           FY 2006 for renewable energy.

                      •    The Agricultural Research Service (ARS) had 29 projects in the
                           biofuel research area in FY 2006, which accounted for less than
                           3 percent of the agency’s total research projects.

                      •    The Forest Service (FS) expended 4.4 percent of total research
                           expenditures on renewable energy in FY 2006 ($12 million of
                           $277 million).

                      •    The Cooperative State Research, Education, and Extension Service
                           (CSREES) expended less than 3.3 percent of total National Research
                           Initiative expenditures on renewable energy research during
                           FY 2006 ($5.45 million of $166.8 million).


USDA/OIG-A/50601-0013-Ch                                                                     Page 7
                   The following examples resulted from our comparison of amounts and
                   percentages expended by agency managers prior to and after the Energy
                   Policy Act and the President’s Advanced Energy Initiative. The examples
                   illustrate that program managers had not significantly increased renewable
                   energy funding as a percentage of total program funding from FY 2005 to
                   FY 2006.

                      •    RBS’ Business and Industry Loan Guarantee Program increased
                           renewable energy activities less than 3.3 percent.

                      •    RBS’ RBEG Program increased renewable energy activities less than
                           1 percent.

                      •    FS’ Woody Biomass Utilization Grant (WBUG) Program increased
                           renewable energy activities about 8 percent.

                      •    RBS’ Rural Economic Development Grant Program had a 3 percent
                           increase in renewable energy activities.

                   We asked a departmental official why more funds were not used for
                   renewable energy projects from programs that were not appropriated funds
                   for that purpose. The official stated that all types of projects have benefits and
                   agencies can only fund renewable energy projects based on the number of
                   applications received. The official further stated that funding renewable
                   energy projects is a complicated issue. The official said that USDA policy is
                   based on flexibility rather than emphasis on a specific area and that the
                   success of renewable energy efforts is largely dependent on the private sector.

                   We found that one agency, FS, made a concerted effort to place emphasis on
                   renewable energy that we had not observed in the other agencies. FS directed
                   its nine regions to make officials responsible for woody biomass renewable
                   energy activities within each region. Two of the regions established full-time
                   woody biomass energy coordinators, while the remaining regions assigned
                   this responsibility to individuals as a collateral duty. The two full-time
                   coordinators prioritized marketing, outreach, and organized renewable energy
                   efforts. They disseminated as many woody biomass utilization grants as the
                   other seven regions combined.

                   All of the part-time coordinators we interviewed said that soliciting
                   participation and facilitating involvement in the program would make
                   renewable energy efforts more effective in their regions. FS’ national energy
                   coordinator stated that full-time coordinators in each region would enhance
                   the program’s effectiveness. Based on discussions with agency managers,
                   they have tentatively agreed with our suggestion to study the option of having
                   a full-time renewable energy coordinator for each region. Similar efforts

USDA/OIG-A/50601-0013-Ch                                                                     Page 8
                                     could be made in other agencies with better guidance provided from the
                                     departmental level.

                                     Another agency, RUS, placed limited emphasis on renewable energy. During
                                     the period FYs 2003 through 2006, RUS officials set aside $800 million in
                                     loan funds for renewable energy activities from the EL Program. This was a
                                     substantial amount, although only about 5 percent of the $15 billion in total
                                     loans for the period. However, agency officials did not expend any of the
                                     funds for renewable energy projects in FY 2006. Those officials said that
                                     they did not receive any applications for the funds.

                                     Renewable Energy Selection Criteria Absent or Inadequate

                                     Agency program managers at RUS, FS, and the Natural Resource
                                     Conservation Service (NRCS) did not use funding selection criteria that gave
                                     priority to renewable energy applications. At those agencies, managers used
                                     normal program criteria, based on a program’s mission, to select a project to
                                     fund because they were not directed by the Department to give preference to
                                     renewable energy. For example, the selection criteria for the FS WBUG
                                     Program were based on the volume of hazardous fuel reduction, which is the
                                     removal and use of low-value woody biomass. Thus, a project involving the
                                     production of mulch has the same chance of funding as one involving the
                                     production of wood pellets to heat homes.

                                     The NRCS Environmental Quality Incentive Program’s (EQIP) selection
                                     criteria were based on the environmental and conservation impact of a
                                     project, not whether it had any renewable energy component. Thus, the
                                     funding of an anaerobic digester 9 by that program is based solely on its
                                     environmental impact and would not have a higher priority because it also
                                     had a renewable energy component.

                                     At RBS, agency officials developed selection criteria that benefited
                                     applications involving renewable energy projects. Agency officials at the two
                                     States we visited said that the criteria were not used because they were
                                     encouraging applicants to use the Section 9006 Program, which had funds
                                     specifically appropriated for renewable energy projects. This would not have
                                     been a concern if the Section 9006 Program had sufficient funds, which it did
                                     not, for all renewable energy applications. As a result, for FYs 2005 and
                                     2006, we found 26 eligible, but unfunded, Section 9006 applications in the
                                     2 States in our review. This is important because the number of unfunded
                                     applications nationwide increased significantly from 182 in FY 2006 to
                                     421 in FY 2007.



9
  Anaerobic digesters use microorganisms to break down organic waste to produce a methane and carbon dioxide rich biogas suitable for energy
production.

USDA/OIG-A/50601-0013-Ch                                                                                                                       Page 9
                   For the RBS Section 9006 Program, much of the criteria were outlined in
                   Title IX of the 2002 Farm Bill. However, agency managers also used other
                   criteria that were not outlined in the Farm Bill legislation for the Section
                   9006 Program. For example, they gave priority to an application from a small
                   agricultural producer or a first time borrower or grantee. Consequently, all
                   other criteria being equal, small producers were more likely to receive
                   funding than large producers.

                   For projects, like wind turbines, this could make a considerable difference on
                   the total energy output of the project. For example, our analysis disclosed that
                   large projects averaged significantly more energy generation per dollar
                   invested than small projects (large projects averaged 41 kilowatt hours per
                   dollar invested while small projects averaged 3 kilowatt hours per dollar
                   invested). In addition, State officials placed more weight on projects
                   involving energy replacement and energy savings, as opposed to the factor of
                   energy generation that we considered to be critical.

                   We questioned the adequacy of the criteria used to identify projects that
                   would provide the greatest benefit for the funds spent. An RBS official stated
                   that the agency included all Farm Bill provisions in the regulations and
                   corresponding selection criteria. Thus, the agency met its obligations. In
                   addition, the agency used criteria from other programs to consider the social
                   and economic benefits of a project and ensure that the best projects were
                   funded. While we agree that the agency’s existing criteria are important, and
                   should be factored into funding decisions, they do not include estimated
                   quantity of energy to be generated per dollar invested in the renewable
                   energy project, which we consider to be a critical factor. Using this factor
                   would provide greater assurance that the projects with the greatest renewable
                   energy benefits are considered for funding by the program.

                   Renewable Energy Projects Not Analyzed

                   We found that none of the four agencies in our review that funded
                   commercialization projects had established procedures to analyze
                   applications to identify those that would provide the most benefit for funds
                   expended. In the research area, we found that three of the seven ARS projects
                   we reviewed produced results that benefited already-mature segments of the
                   ethanol producing industry rather than developing new and innovative
                   technologies in the field of renewable energy. We attributed this to the fact
                   that ARS research projects follow a 5-year cycle. During each cycle, agency
                   officials do not analyze projects for either continued relevance or if the
                   research involves priorities set by the Administration and Congress.

                   One area emphasized by both the President’s Advanced Energy Initiative and
                   the Energy Independence and Security Act of 2007 is the development of
                   cellulosic ethanol. Unfortunately, given its 5-year cycle, ARS will not be in a
USDA/OIG-A/50601-0013-Ch                                                                  Page 10
                                      position to address this important area until 2009. Thus, instead of
                                      prioritizing research that fosters the breakthrough technologies necessary to
                                      make cellulosic ethanol cost competitive, ARS is also performing research
                                      involving mature technology. As a result, despite ARS’ unique position in the
                                      agriculture research area, the agency may not be a major contributor in
                                      making cellulosic ethanol cost competitive by 2012, one of the goals outlined
                                      in the President’s Advanced Energy Initiative.

                                      For instance, one project started in 2004 was intended to improve the “dry-
                                      grinding” process of converting cornstarch to ethanol making it economically
                                      competitive with other processes and thus increasing the overall level of
                                      ethanol production. However, while this research project was proceeding
                                      through its 5-year cycle, economic conditions changed to the point where
                                      dry-grinding became the predominant method of corn ethanol production
                                      even without the benefit of ARS research. An independent panel of experts,
                                      convened by ARS in June 2007, concluded that the corn ethanol industry was
                                      now viable on its own and that little or no continued investment of public
                                      funds for research was justified. Thus, there was little to be gained by
                                      continuing this research. However, despite these findings, at the time of our
                                      audit the projects had continued uninterrupted because of ARS policy.

                                      Another issue is that no agency established procedures to analyze the results
                                      of completed projects to compare expected and actual renewable energy
                                      outcomes. One agency, RBS, has most of the data necessary to analyze
                                      Section 9006 projects after they become operational in the Post Award
                                      Tracking System. 10 Agency officials stated they intended to use the system in
                                      this manner. However, they acknowledged that the system was not being
                                      used to its full potential at the time of our audit. RBS officials stated that they
                                      funded a study to review of the results of their Section 9008 Biomass
                                      Research and Development Grant Program. The study was ongoing at the
                                      time of our review.

                                      Another agency, ARS, used personnel from outside its agency to perform a
                                      retrospective assessment of the bioenergy and energy alternative research
                                      program’s success relative to goals. However, this review was done as part of
                                      ARS’ planning for the next research cycle, and was not intended to assess, act
                                      on, and revise ongoing research. Without such an analysis, it is impossible to
                                      determine if projects meet original renewable energy goals. We recognize
                                      that ARS does perform annual project reports, which monitor research
                                      progress toward national priorities including research relevance. ARS
                                      officials have agreed to improve the annual reviews soliciting a more explicit
                                      report on each project’s progress towards meeting national program goals.



10
     The Section 9006 Program accounted for 76 percent of RBS approved renewable energy projects between FYs 2001 and 2006.

USDA/OIG-A/50601-0013-Ch                                                                                                      Page 11
                   We found that officials at the seven agencies in our review did not perform
                   analysis either before or after completion because there is no requirement or
                   request to do such an analysis. Additionally, many projects are funded
                   through existing programs, so agency officials do not evaluate the projects in
                   terms of renewable energy; instead, they evaluate projects based on the
                   mission of the program. Thus, there is no way to determine if projects
                   accomplished stated goals or were the best ones to support. For instance, we
                   analyzed the estimated kilowatt hours applicants expected to generate from
                   15 of the 26 unfunded projects at the 2 States in our review. Our analysis
                   disclosed that 12 of the 15 unfunded projects could have provided more
                   energy output per dollar spent than at least 53 projects actually funded in FY
                   2006. The unfunded project with the highest estimated energy output
                   exceeded the estimates for 118 funded projects. RBS officials stated they are
                   developing procedures to perform such pre-approval analyses for the Section
                   9006 Program. However, they do not have plans to develop similar
                   procedures for programs where funds are not appropriated for renewable
                   energy activities.

                   The conditions described in this finding could be corrected through a
                   departmental strategy that provides specific actions related to renewable
                   energy activities for all agencies and programs. A comprehensive strategy
                   should include Departmentwide goals, a plan for agencies to follow in
                   achieving those goals, a means of obtaining and measuring program results,
                   and a comparison of project results to established goals. Without such a
                   strategy, it will be difficult for the Department to achieve goals such as those
                   related to the development of cellulosic ethanol.

Recommendation 1

                   Develop and implement a strategy for renewable energy activities for all
                   agencies and programs within the Department that includes goals, a plan for
                   agencies to follow in achieving those goals, a means of obtaining and
                   measuring program results, and a comparison of project results to established
                   goals.

                   Agency Response

                   The Department will elevate renewable energy planning within the context of
                   the current strategic planning process as detailed below:

                   An inter-agency working group reporting to the USDA Energy Council will
                   develop recommendations for identifying renewable energy programs and
                   incorporating specific renewable energy planning and reporting targets
                   (including performance measures), and priorities identified by the Biomass
                   Research and Development Board, for inclusion in the 2011-2015 Strategic
                   Plan. This group will be identified by September 30, 2008, and will submit
USDA/OIG-A/50601-0013-Ch                                                                  Page 12
                   recommendations to the Energy Council by May 1, 2009, so that they can be
                   fully included for departmental preparations for the 2011-2015 Strategic
                   Plan.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved once a copy of the inter-agency working group’s
                   recommendations is provided to the Office of the Chief Financial Officer
                   (OCFO).




USDA/OIG-A/50601-0013-Ch                                                            Page 13
Section 2: Duplication of Funding

Finding 2                         Funds Used for Intended Purposes, but Policies and Procedures
                                  to Prevent Duplicative Funding are Absent

                                  One important aspect of our audit work was to verify that funds reported as
                                  expended for renewable energy activities actually were used for those
                                  purposes. Another was to determine if any duplication of funding had
                                  occurred among USDA agencies. At the 6 agencies we visited, we examined
                                  records related to 137 renewable energy projects, totaling $115.4 million,
                                  funded by the Department’s various programs. We performed site visits at
                                  89 commercial projects that received approximately $89 million in funding
                                  from USDA. Overall, we found that funds reported as being used for
                                  renewable energy projects were actually spent for those purposes. Further, we
                                  found no instances where funds specifically appropriated for renewable
                                  energy activities were diverted to other purposes and no instances where
                                  funds were used for duplicative purposes within USDA.

                                  We did conclude, however, that duplicate funding and efforts could occur
                                  within the Department’s programs. There are at least six agencies within the
                                  Department with programs that fund similar renewable energy projects. 11 The
                                  Department has not issued guidance concerning coordination of similar
                                  renewable energy projects or verification that applicants are not provided
                                  duplicate funds for projects. Also, there are no formal internal controls or a
                                  Departmentwide system to compare the details of funded projects to the
                                  proposed objectives of new applications.

                                  The following sections detail our concern regarding duplication of funding
                                  and research efforts.

                                  No Departmental Guidance on Similar Programs

                                  The Department needs to develop written guidance for agency officials to use
                                  when processing applications for renewable energy projects. The guidance
                                  should provide policy regarding the funding of similar projects. Such
                                  guidance is critical considering the number of agencies and programs that
                                  fund similar projects.

                                  We identified four agencies (RBS, RUS, FS, and NRCS) that fund
                                  similar commercialization projects. Within those agencies, there are
                                  11 programs that fund similar types of renewable energy projects. We
                                  identified several cases where overlapping funding was possible. For
                                  example, RUS’ EL and HECG Programs and RBS’ Value-Added Producer
                                  Grant and Section 9006 Programs each funded wind and solar projects. The

11
     RBS, RUS, NRCS, FS, ARS, and CSREES.

USDA/OIG-A/50601-0013-Ch                                                                                Page 14
                   total cost for some projects was more than $2 million, which is significant
                   when there is a risk of overlapping funding. Although we did not find any
                   applicants who received duplicate funding, there are no controls in place to
                   ensure it will not occur.

                   Other examples included RBS’ Section 9006 Program, RUS’ EL Program,
                   and NRCS’ EQIP and Conservation Innovation Grant Program, which all
                   fund anaerobic digesters for individual farmers. The FS WBUG Program
                   funded biomass projects such as solid and biofuel production, which are also
                   funded by all six RBS and both RUS Programs. In fact, we found instances
                   where the FS WBUG Program and RBS’ Section 9006 and RBEG Programs
                   provided funding to the same recipients. The recipients obtained funding
                   without any coordination from USDA agencies for different aspects of the
                   project. (Our audit found no evidence of duplication or improper payments.)

                   In the research area, ARS, CSREES, and FS each perform or fund similar
                   renewable energy projects. For instance, ARS performed research on
                   converting vegetable oil into biofuel around the same time that CSREES
                   provided grant funds to a university to perform similar research. In addition,
                   while FS generally performs research in the woody biomass area, CSREES
                   also funds research in that area. While performing similar research is not
                   necessarily harmful, agency officials should be aware of similar research and
                   coordinate with each other to obtain maximum benefit from the research.

                   Agency officials we met with acknowledged the potential for duplication of
                   funding and effort. Those officials stated that they did not receive guidance
                   from the Department or the Energy Council regarding this issue.

                   Formal Controls or Departmentwide Comparison System Needed

                   None of the four agencies that funded commercial renewable energy projects
                   have formal internal control procedures to check for duplication of funding
                   with other USDA programs. There are no systems to compare data from
                   funded and proposed projects.

                   One agency, RBS, which has six programs that fund renewable energy
                   projects, requires field staff to enter applicant data into the Guaranteed Loan
                   System (GLS). However, the agency did not establish written procedures
                   requiring field officials to compare applicant information with data already in
                   GLS. We found that officials at one State office we visited were comparing
                   applicant data to prevent duplication. Officials at a second State said they
                   were also comparing data, but we found no evidence of the action.




USDA/OIG-A/50601-0013-Ch                                                                 Page 15
                   A Rural Development official stated that RBS and RUS applications require
                   applicants to certify all financing sources, which would identify potential
                   duplication of funding. This control measure may not be effective because
                   applicants often place their own interests and not the interest of the
                   Government first. Additionally, mistakes could occur.

                   In the research area, ARS officials use the Current Research Information
                   System (CRIS) to verify that proposed research was not duplicating either
                   ongoing or past projects. CRIS includes data relating to objectives, approach,
                   progress, and publication information. For research projects, agency officials
                   perform keyword searches of the data before approving research projects.
                   This control provides some assurance that research will not be duplicated by
                   agency scientists; however, it is not ideal because the use of a wrong
                   keyword would not provide a match. Also, data in the system are voluminous
                   and scientific in nature. As a result, keyword searches may not always focus
                   on the right data.

                   Although CSREES officials stated that they have several mechanisms for
                   avoiding duplication of renewable energy research, such as the researcher’s
                   completion of the “Current and Pending Support” form and a number of
                   different peer review meetings, we found that their use of CRIS to avoid
                   duplication could be improved. CSREES officials also stated that they
                   compared proposed research with CRIS data to identify duplication of efforts.
                   They said that procedures are informal and there is no written guidance for
                   agency officials to follow. However, we found no evidence that agency
                   officials performed such actions prior to approving research grants.

                   FS relies solely on its scientists to verify that proposed research is not
                   duplicative. The agency has no formalized procedures to verify that research
                   does not duplicate efforts being performed at other agencies.

                   Insufficient Communication within USDA and Outside

                   According to some agency officials we questioned, they are not required to
                   and have not communicated with each other about specific projects being
                   funded by their respective programs. An RBS official stated that in the past,
                   Rural Development and NRCS field staff held informal meetings to compare
                   applicant information to prevent duplicate funding, but was unsure if the
                   meetings still occurred.

                   Several agency officials stated that coordination of activities is necessary to
                   prevent duplicative funding. The Energy Council developed a departmental
                   matrix to identify all programs funding renewable energy projects. However,
                   it has not developed a mechanism for agency officials to use the matrix to
                   check for possible duplication upon receiving an application for funding.

USDA/OIG-A/50601-0013-Ch                                                                 Page 16
                   In addition, USDA agencies risk funding projects that receive funding from
                   other Federal agencies. RBS was the only agency that we were aware of that
                   shared data with officials from another Federal agency.

Recommendation 2

                   Develop and implement Departmentwide policy and procedures that require
                   agencies to check for duplicate funding of renewable energy projects within
                   USDA programs.

                   Agency Response

                   By September 30, 2008, USDA will establish an inter-agency working group
                   to identify the most efficient approach to cross-checking applications within
                   the Department.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved once a copy of the written departmental procedures requiring
                   agencies to cross-check loans, grants, or guarantees within the Department is
                   provided to OCFO.

Recommendation 3

                   Develop a database of renewable energy projects funded by USDA programs.

                   Agency Response

                   The Department agrees to continue to work towards a consolidated database
                   of all USDA renewable energy projects. In the interim, by January 1, 2009,
                   USDA will expand the Energy Matrix to include links to agency databases of
                   renewable energy projects.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved once a copy of the updated Energy Matrix that includes links to
                   agency databases of renewable energy projects is provided to OCFO.

Recommendation 4

                   Develop and implement procedures to check for duplication with other
                   Federal agencies that have similar programs before funding renewable energy
                   projects.

USDA/OIG-A/50601-0013-Ch                                                                Page 17
                   Agency Response

                   Beginning January 1, 2009, USDA will require agencies to cross-check loans,
                   grants, or guarantees against the Federal Assistance Awards Data System
                   (FAADS) or other agreed-upon alternative systems identified by the inter-
                   agency working group.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved once a copy of the written departmental procedures requiring
                   agencies to cross-check loans, grants, or guarantees against the existing
                   FAADS or other agreed-upon alternative systems identified by the inter-
                   agency working group is provided to OCFO.




USDA/OIG-A/50601-0013-Ch                                                              Page 18
Section 3: Inaccurate Reporting

Finding 3                             USDA Underreported Renewable Energy Funding to the Office of
                                      Management and Budget

                                      We found that agencies underreported renewable energy funding by up to
                                      $97 million for FY 2006. Specifically, some agency officials did not (1) use
                                      the criteria contained in OBPA’s guidance to identify renewable energy
                                      funding, (2) distribute OBPA’s guidance to officials delegated the
                                      responsibility to identify renewable energy funding, or (3) perform sufficient
                                      reviews to identify renewable energy funding. We attributed these errors to
                                      agency officials not fully understanding reporting requirements, not placing
                                      sufficient emphasis on obtaining full and complete information, and not
                                      having controls in place to ensure the information was accurate. As a result,
                                      the Department reported inaccurate figures to OMB for its use in developing
                                      policy.

                                      Periodically, OMB requests information on the extent of program funds spent
                                      on renewable energy activities. The Department, through OBPA, collects
                                      information three times a year on renewable energy related programs and
                                      activities administered by agencies under each mission area. To assist agency
                                      budget officials in providing full and complete information on renewable
                                      energy activities, OBPA, together with input from OMB and the Energy
                                      Council, developed guidance related to renewable energy funding for
                                      dissemination to all agencies for compiling the Department’s spending on
                                      renewable energy activities.

                                      OBPA requested agency officials report on the funding available to support
                                      biobased products/bioenergy and energy programs. This included biofuels
                                      and the development of biobased products from agricultural and forestry
                                      commodities divided into the following categories: commercialization;
                                      research and development; outreach and education; and energy efficiency and
                                      conservation. 12

                                      The Department reported over $1.6 billion in renewable energy activities to
                                      OMB since FY 2001. The following are the amounts reported:

                                                  Fiscal Year Reported Renewable Energy Activity (millions)
                                                     2001                       $154.3
                                                     2002                       $224.6
                                                     2003                       $283.5
                                                     2004                       $293.1
                                                     2005                       $242.1
                                                     2006                       $214.2
                                                     2007                       $197.1
12
     USDA Budget Manual, Part II, Chapter 12, Exhibit C-1.

USDA/OIG-A/50601-0013-Ch                                                                                    Page 19
                                       We selected FY 2006 to review and the seven agencies in our review reported
                                       over $207 million, or 97 percent, of the Department’s total for that year. 13

                                       In most agencies, we worked directly with program officials responsible for
                                       identifying the extent of expenditures in renewable energy activities that were
                                       reported to OBPA. In some instances, they referred us to agency budget
                                       officials for additional information or support for the renewable energy
                                       expenditures. We also conducted additional test reviews if we determined
                                       that agency officials had not made sufficient reviews of the reported figures.

                                       We found that all seven agencies in our review underreported renewable
                                       energy activities. Those agencies reported $207 million in renewable energy
                                       activity, but should have reported up to $304 million. This was over
                                       $97 million more than what was reported to OMB.

                                       We found a variety of reasons for the erroneous reporting. The following
                                       examples illustrate those reasons.

                                            •     At RBS, program officials submitted renewable energy estimates
                                                  rather than actual amounts. When this discrepancy was discovered,
                                                  they were told by OBPA officials that it was too late to revise the
                                                  amount reported. Also, program officials did not include three small
                                                  programs – RBEG, Rural Economic Development Grant Program,
                                                  and Rural Business Opportunity Grant Programs – in their reporting.
                                                  Expenditures for these three programs totaled over $1.1 million in
                                                  FY 2006. The combined errors resulted in an understatement of RBS
                                                  funding by over $38 million.

                                            •     At RUS, program officials submitted $7.2 million in expenditures for
                                                  the HECG Program to Rural Development’s budget office, but that
                                                  amount was not reported to OBPA.

                                            •     For FSA, departmental officials omitted the Bioenergy Program
                                                  because it ended in the middle of FY 2006. They believed that
                                                  inclusion of this program would distort the Department’s renewable
                                                  energy funding levels for future years. In FY 2006, this program
                                                  provided $26 million in incentive payments to biofuel producers.

                                            •     CSREES budget officials did not pass along the OBPA guidance to
                                                  program officials. As a result, program officials established their own
                                                  criteria using the 2002 Farm Bill as a guide. Budget officials did not
                                                  know they should provide this guidance to the program officials and
                                                  had no controls to check actual data provided. Using OBPA’s
                                                  guidance, we identified 32 additional projects totaling approximately

13
     Two of the seven agencies in our review, FSA and RUS, did not report funding for FY 2006.

USDA/OIG-A/50601-0013-Ch                                                                                        Page 20
                           $8 million that met the renewable energy criteria for either the entire
                           research project or for a component of the project. This amount
                           would be in addition to the $15.9 million reported by CSREES.

                      •    For ARS, agency officials only reported projects with the “biofuels”
                           and “biobased products” budget codes and did not identify an
                           additional 25 projects, with funding totaling $7 million that met
                           OBPA’s guidelines.

                      •    At NRCS, officials did not include $9.6 million in renewable energy
                           funding through agency programs because of the difficulty in
                           gathering those figures from the agency’s data system.

                      •    FS’ data systems were unable to track the disposition of woody
                           biomass from agency forests. Further, the data system did not include
                           over $1.5 million of WBUG Program grant funds used for renewable
                           energy projects.

                   As described above, we identified significant errors in reporting on renewable
                   energy activities and the reasons for the incorrect reporting. Some agency
                   budget officials delegated the responsibility for identifying these activities to
                   program officials without reviewing or questioning how they arrived at the
                   amounts provided.

                   Agency officials also explained their difficulty in using the OBPA prescribed
                   reporting format. For instance, OBPA did not include all agency programs on
                   the report template. As a result, some agency officials did not report
                   renewable energy activities for these programs. In response to our audit,
                   some agency officials stated that they have taken corrective actions.

                   We discussed the various reasons for the incorrect reporting with an OBPA
                   official. The official said that OBPA disseminated guidance to assist agencies
                   in the reporting process and that the OBPA Director held a meeting with all
                   agency budget officials to explain the process, including the reporting format.
                   The official added that OBPA must rely on agency officials to determine
                   what meets the renewable energy criteria and what should be included in the
                   funding report. In our view, OBPA should conduct another meeting, or
                   training session, to review the issues identified during our audit and the
                   overall reporting guidance.

Recommendation 5

                   Prepare a memorandum to the appropriate agency officials emphasizing the
                   need to accurately identify and submit to OBPA renewable energy activities.


USDA/OIG-A/50601-0013-Ch                                                                   Page 21
                   Agency Response

                   By September 30, 2008, the USDA Energy Council will work with OBPA to
                   provide agencies additional clarification and guidance on the need to
                   accurately identify and submit information on renewable energy activities
                   consistent with current instructions on the crosscut.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved once a copy of the additional clarification and guidance is
                   provided to OCFO.

Recommendation 6

                   Conduct a training session where appropriate departmental and agency
                   budget officials review the issues identified by our audit.

                   Agency Response

                   The USDA Energy Council will identify appropriate agency staff by
                   September 30, 2008, that are involved in tracking and reporting of energy
                   activities. Under the guidance of the USDA Energy Council, these staff will
                   review OIG’s audit findings and recommendations by November 30, 2008.
                   Guidance will be provided to agencies on steps that they should be taking to
                   be responsive to OIG’s findings and recommendations.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved by advising OCFO that designated staff reviewed the audit
                   findings and recommendations and guidance was provided to agencies on
                   steps they should be taking to be responsive to the findings and
                   recommendations.

Recommendation 7

                   Revise the OBPA report format to include all programs that provide funding
                   for renewable energy activities.

                   Agency Response

                   By May 30, 2009, a revised reporting format will be completed.




USDA/OIG-A/50601-0013-Ch                                                               Page 22
                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved by providing OCFO with a copy of the revised reporting format,
                   which includes all programs that provide funding for renewable energy
                   activities.




USDA/OIG-A/50601-0013-Ch                                                             Page 23
Section 4: Outreach Efforts

Finding 4            USDA’s Web-Based Renewable Energy Outreach System Needs
                     Modification

                     The USDA Energy Matrix did not include important program information.
                     Further, some information in the matrix is confusing because it presents
                     internal USDA activities alongside funding opportunities being provided to
                     potential program applicants. An Energy Council official stated that the
                     matrix is a new system with some glitches. These errors decrease the
                     effectiveness of the matrix as an outreach tool.

                     The Energy Council Commercialization Committee spearheaded the
                     development of the USDA Energy Matrix to provide information to the
                     public on USDA's energy-related research and development and
                     commercialization programs. The matrix is intended to be a single reference
                     point for anyone in the private sector or academia who would like to partner
                     with USDA. It promotes and highlights all available USDA renewable energy
                     activities, with the ultimate goal of adding other Federal agencies’ renewable
                     energy information to the matrix to create a Governmentwide renewable
                     energy reference tool.

                     The Secretary of Agriculture announced the launching of the Energy Matrix
                     in March 2007, while discussing 2007 Farm Bill proposals for renewable
                     energy. Each mission area provided the information included in the matrix,
                     with Rural Development working with the Office of the Chief Financial
                     Officer and the Office of the Chief Information Officer to populate the
                     information compiled in the matrix. Rural Development provided for the
                     technical development and maintenance of the matrix. According to an
                     Energy Council official, the mission areas are responsible for ensuring the
                     information is accurate and current. The Commercialization Committee
                     reminds the agencies within the mission areas to keep the information
                     current, but does not ensure the accuracy of the information compiled in the
                     matrix.

                     The Energy Matrix is located on the USDA energy website, which is the
                     primary outreach tool for the Department. The Energy Matrix has been
                     announced and demonstrated to various stakeholder groups such as the
                     Biomass Research and Development Board and its Technical Advisory
                     Committee, the Department of Transportation, OMB, and the Environmental
                     Protection Agency.

                     Information contained in the USDA Energy Matrix can be viewed three
                     different ways, “By Program,” “By Energy,” and “By Agency.” Our analysis
                     identified 29 instances where programs were not shown on some views of the
                     matrix, diminishing its usefulness. We also found that some programs were
USDA/OIG-A/50601-0013-Ch                                                                   Page 24
                   missing from all three views of the matrix. Information was not always
                   clearly presented in the matrix because it includes internal activities provided
                   only for informational purposes alongside programs that provide funding.

                   The Commercialization Committee is awaiting the implementation of new
                   software, which would aid in the migration of other Federal agencies’
                   information into the matrix. The committee intends to include DOE
                   information first because of the large volume of renewable energy activities
                   in DOE.

                   In addition, the Energy Matrix is unable to track the number of visitors,
                   ascertain if the information in the matrix is being used. Thus, the Department
                   is unable to determine if the matrix is being used. One official stated that the
                   Department is developing new software to perform this function.

                   We discussed the lack of accurate and complete views of the matrix with an
                   Energy Council official and provided him with our analysis. He replied that
                   the matrix is still a new system with some glitches. We also discussed our
                   concerns about the inaccuracies of the matrix with Rural Development
                   officials who agreed that this is an issue that needs to be corrected.

Recommendation 8

                   Update data in the USDA Energy Matrix.

                   Agency Response

                   By May 30, 2009, the USDA Energy Council will direct agencies to update
                   the USDA Energy Matrix consistent with actions taken in response to OIG’s
                   other recommendations.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved by providing OCFO with a copy of the updated matrix.

Recommendation 9

                   Develop procedures to ensure the accuracy of information submitted for
                   inclusion in the USDA matrix.

                   Agency Response

                   The Energy Council will direct various USDA agencies included in the
                   Matrix to incorporate OIG’s recommendations for inclusion of quality control
                   measures. The USDA Energy Council will identify, by November 30, 2008,
USDA/OIG-A/50601-0013-Ch                                                                  Page 25
                   action items to be accomplished, with updates being developed and
                   implemented by May 30, 2009.

                   OIG Position

                   We accept management decision for this recommendation. Final action can
                   be achieved by providing OCFO with a copy of the quality control measures
                   developed.




USDA/OIG-A/50601-0013-Ch                                                            Page 26
Scope and Methodology
                                   We conducted our audit of renewable energy activities at the national offices
                                   of seven U.S. Department of Agriculture (USDA) agencies located in
                                   Washington, D.C., and Beltsville, Maryland. The seven agencies were: Farm
                                   Service Agency (FSA); 14 Rural Business-Cooperative Service (RBS); 15 Rural
                                   Utilities Service (RUS); 16 Forest Service (FS); 17 Natural Resource
                                   Conservation Service (NRCS); 18 Agricultural Research Service (ARS); 19 and
                                   Cooperative State Research, Education, and Extension Service (CSREES). 20
                                   We issued separate audit reports to each agency as warranted.

                                   We selected the seven agencies based on the number of programs and
                                   amounts at agencies that funded renewable energy activities. To complete our
                                   audit, we performed site visits at 89 commercial renewable energy projects
                                   funded by USDA and 4 university research facilities that received funding
                                   from CSREES. We visited USDA offices and facilities in 14 States as
                                   follows: 3 State offices (Rural Development), 7 area offices (2 for ARS and
                                   5 for Rural Development), 4 research facilities (2 for ARS and 2 for FS),
                                   4 national forests, 2 FS regional offices, and the Kansas City Commodity
                                   Office. The 14 States were Arizona, California, Iowa, Illinois, Wisconsin,
                                   Maryland, Michigan, Minnesota, Missouri, New Mexico, North Carolina,
                                   Pennsylvania, South Dakota, and Virginia.

                                   The period of our audit was fiscal years (FY) 2001 through 2007. The
                                   Department provided over $1.6 billion for renewable energy projects from
                                   FYs 2001 through 2007, 99 percent of which was expended in the seven
                                   agencies in our audit. Those funds were used for 132 ethanol and
                                   biodiesel facilities, 130 wind projects, 22 solar projects, 92 anaerobic
                                   digesters, and 7 landfill recovery systems, as well as other projects. 21

                                   The Department provided more than $112 million for renewable energy
                                   research projects in FY 2006 and almost $545 million in incentive payments
                                   between FYs 2001 and 2006 to biodiesel and ethanol producers. Our audit
                                   included an examination of records related to 137 projects at 6 agencies
                                   involving over $115 million. 22

                                   We selected FY 2006, the most recent actual figures at the time or our
                                   fieldwork, for our review of renewable energy activities reported to the

14
   03601-0025-KC, Commodity Credit Corporation Bioenergy Program.
15
   34601-0005-CH, Implementation of Renewable Energy Programs in Rural Business-Cooperative Service.
16
   09601-0007-TE, Implementation of Renewable Energy Programs in Rural Utilities Service.
17
   08601-0052-SF, Implementation of Renewable Energy Programs in Forest Service.
18
   10601-0005-KC, Implementation of Renewable Energy Programs in Natural Resources Conservation Service.
19
   02601-0002-CH, Implementation of Renewable Energy Programs for Agricultural Research Service.
20
   13601-0001-HY, CSREES – National Research Initiatives Competitive Grants Program (NRICGP).
21
   2007 Farm Bill Theme Paper, Energy and Agriculture: August 2006.
22
   We did not review records for NRCS.

USDA/OIG-A/50601-0013-Ch                                                                                   Page 27
                                  Office of Management and Budget (OMB). In FY 2006, the seven agencies
                                  in our review reported over $207 million, or 97 percent, of the total amount
                                  of $214.2 million in renewable energy activities reported by USDA. For the
                                  seven agencies, program officials provided documentation to support the
                                  funds reported to the Office of Budget and Program Analysis. In most
                                  agencies, we were referred to program officials responsible for identifying
                                  the extent of expenditures in renewable energy activities. We also conducted
                                  additional test reviews if we believed sufficient reviews were not made by
                                  agency officials of the reported figures.

                                  In the Rural Development mission area, RBS provided $339 million to fund
                                  1,100 renewable energy projects through seven programs during the period
                                  FYs 2001 to 2006. The seven RBS programs were the Renewable Energy and
                                  Energy Efficiency Improvement (Section 9006) Program, the Business and
                                  Industry (B&I) Guaranteed Loan Program, the Value-Added Producer Grant
                                  (VAPG) Program, the Rural Business Enterprise Grants (RBEG) Program,
                                  the Rural Business Opportunity Grant (RBOG) Program, the Biomass
                                  Research and Development Grant Program, and the Rural Economic
                                  Development Loan and Grant (REDLG) Program.

                                  We reviewed 93 RBS projects totaling $54.4 million from two States
                                  (Minnesota and Iowa) for five RBS programs. 23 RBS' Section 9006 Program,
                                  the largest renewable energy program in the agency and the only
                                  commercialization program with funds appropriated specifically for that
                                  purpose, provided $122 million to fund 832 projects. We reviewed records
                                  related to 62 Section 9006 Program projects totaling over $9.5 million. For
                                  RBS, we judgmentally selected two States (Minnesota and Iowa) that had
                                  higher numbers of loans and grants and large dollar amounts disbursed
                                  through a variety of agency programs.

                                  RUS provided $113.5 million to fund 23 renewable energy projects through
                                  two programs (the High Energy Cost Grant Program and the Electric Loan
                                  Program). We reviewed four of those projects totaling almost
                                  $12 million from one State (Arizona). We selected that State because it was
                                  the only one with both loans and grants for renewable energy projects.

                                  FSA provided $544.5 million in incentive payments to 155 ethanol and
                                  biodiesel producers from FYs 2001 to 2006 through its Bioenergy Program.
                                  Our audit examined records for 5 producers involving more than
                                  $29.6 million.

                                  Per the OBPA renewable energy report, NRCS accounted for 0.2 percent of
                                  all renewable energy funding in the Department in FY 2006. Due to the small

23
  We reviewed projects in the following programs: B&I; REDLG; VAPG; RBEG; and Section 9006. There were no RBOG projects in the two States we
visited.

USDA/OIG-A/50601-0013-Ch                                                                                                          Page 28
                   number of renewable energy projects funded by NRCS, we did not conduct
                   site visits or review any related records.

                   FS funded 64 projects totaling $14.7 million through the Woody Biomass
                   Utilization Grant Program during FYs 2005 through 2007, 17 of which were
                   directly related to renewable energy projects totaling over
                   $4.1 million.

                   In the research area, ARS performed 29 projects involving biofuel and
                   another 53 projects involving biobased products during FY 2006. The
                   29 biofuel projects received funding of $20.7 million. The biobased products
                   projects received funding of $49.9 million. Our audit included seven projects
                   that received nearly $10.5 million in funding. CSREES provided
                   $10.9 million during the period FYs 2005 through 2006 to fund 32 renewable
                   energy projects. We reviewed 13 of those projects at 4 universities that
                   received grants totaling over $4.7 million. The FS expended $12.3 million in
                   FY 2006 on renewable energy research. We reviewed 15 projects at
                   2 research facilities that received over $4.3 million in funding.

                   To accomplish our objectives, we performed the following procedures related
                   to renewable energy activities within the Department:

                      •    Reviewed applicable laws, regulations, and various agency guidance;

                      •    Reviewed agency policies, procedures, and key internal controls;

                      •    Interviewed agency officials to determine the guidance and direction
                           given to loan and grant applicants;

                      •    Interviewed loan and grant recipients to confirm information provided
                           to agency officials;

                      •    Visited properties financed by agency programs to confirm that funds
                           were used for eligible purposes;

                      •    Interviewed members of the Energy Council and other relevant
                           Department level officials; and

                      •    Reviewed the President’s Advanced Energy Initiative.

                   We conducted our audit from December 2006 through January 2008. We
                   conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our audit

USDA/OIG-A/50601-0013-Ch                                                                Page 29
                   objective. We believe that the evidence obtained provides a reasonable basis
                   for our findings and conclusions based on our audit objective.




USDA/OIG-A/50601-0013-Ch                                                               Page 30
Exhibit A – Agencies and Programs with Renewable Energy Activity
                                                                                               Exhibit A – Page 1 of 2

                                                Rural Business-Cooperative Service
                                                Commercialization
                                                • Section 9006 Renewable Energy and Energy Efficiency
                                                   Improvement Program 1,2
                                                • Business and Industry Guaranteed Loan Program1
                                                • Value-Added Producer Grant Program1
                                                • Rural Business Opportunity Grant Program1
                                                • Rural Business Enterprise Grant Program1
                                                • Rural Economic Development Loan and Grant Program1
                                                Research & Development
                                                • Section 9008 Biomass Research and Development Grant Program2

                                                Rural Utilities Service
                                                Commercialization
                                                • High Energy Cost Grant Program1
                                                • Electric Loan Program1

                                                Farm Service Agency
                                                Commercialization
                                                • Bioenergy Program1(Section 9010)2

                                                Natural Resources and Conservation Service
                                                Commercialization
                                                • Environmental Quality Incentive Program
                                                • Conservation Innovation Grant Program
                                                • Conservation Security Program
                                                • Conservation Technical Assistance Program
                                                • Resource Conservation and Development Program
                                                Research & Development
                                                • Plant Materials Center

                                                Forest Service
                                                Commercialization
                                                • Woody Biomass Utilization Grant Program1
                                                Research & Development
                                                • Forest Products Laboratories1
                                                • Research Stations1



1
    Program included in our review.
2
    Program legislated by the 2002 Farm Bill.

USDA/OIG-A/50601-0013-Ch                                                                                    Page 31
Exhibit A – Agencies and Programs with Renewable Energy Activity
                                                                                                    Exhibit A – Page 2 of 2

                                                Agricultural Research Service
                                                Research & Development
                                                • National Program 307 – Bioenergy and Energy Alternative 1

                                                Cooperative State Research, Education, and Extension Service
                                                Research & Development
                                                • Agriculture Materials Program
                                                • National Research Initiative1
                                                • Sustainable Agriculture Research and Education
                                                • Small Business Innovations Research

                                                Office of the Chief Economist
                                                Education and Outreach
                                                • Section 9002 – Federal Procurement of Biobased Products Program 2
                                                • Section 9004 – Biodiesel Fuel Education Program2

                                                Departmental Administration
                                                Education and Outreach
                                                • USDA BioPreferred Biobased Product Procurement Program
                                                • Alternative Fuel Vehicles/Alternative Fuels




1
    Program included in our review.
2
    Program legislated by the 2002 Farm Bill.

USDA/OIG-A/50601-0013-Ch                                                                                         Page 32
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 27




USDA/OIG-A/50601-0013-Ch                    Page 33
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 27




USDA/OIG-A/50601-0013-Ch                    Page 34
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 27




USDA/OIG-A/50601-0013-Ch                    Page 35
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 27




USDA/OIG-A/50601-0013-Ch                    Page 36
Exhibit B – Agency Response
                              Exhibit B – Page 5 of 27




USDA/OIG-A/50601-0013-Ch                    Page 37
Exhibit B – Agency Response
                              Exhibit B – Page 6 of 27




USDA/OIG-A/50601-0013-Ch                    Page 38
Exhibit B – Agency Response
                              Exhibit B – Page 7 of 27




USDA/OIG-A/50601-0013-Ch                    Page 39
Exhibit B – Agency Response
                              Exhibit B – Page 8 of 27




USDA/OIG-A/50601-0013-Ch                    Page 40
Exhibit B – Agency Response
                              Exhibit B – Page 9 of 27




USDA/OIG-A/50601-0013-Ch                    Page 41
Exhibit B – Agency Response
                              Exhibit B – Page 10 of 27




USDA/OIG-A/50601-0013-Ch                     Page 42
Exhibit B – Agency Response
                              Exhibit B – Page 11 of 27




USDA/OIG-A/50601-0013-Ch                     Page 43
Exhibit B – Agency Response
                              Exhibit B – Page 12 of 27




USDA/OIG-A/50601-0013-Ch                     Page 44
Exhibit B – Agency Response
                              Exhibit B – Page 13 of 27




USDA/OIG-A/50601-0013-Ch                     Page 45
Exhibit B – Agency Response
                              Exhibit B – Page 14 of 27




USDA/OIG-A/50601-0013-Ch                     Page 46
Exhibit B – Agency Response
                              Exhibit B – Page 15 of 27




USDA/OIG-A/50601-0013-Ch                     Page 47
Exhibit B – Agency Response
                              Exhibit B – Page 16 of 27




USDA/OIG-A/50601-0013-Ch                     Page 48
Exhibit B – Agency Response
                              Exhibit B – Page 17 of 27




USDA/OIG-A/50601-0013-Ch                     Page 49
Exhibit B – Agency Response
                              Exhibit B – Page 18 of 27




USDA/OIG-A/50601-0013-Ch                     Page 50
Exhibit B – Agency Response
                              Exhibit B – Page 19 of 27




USDA/OIG-A/50601-0013-Ch                     Page 51
Exhibit B – Agency Response
                              Exhibit B – Page 20 of 27




USDA/OIG-A/50601-0013-Ch                     Page 52
Exhibit B – Agency Response
                              Exhibit B – Page 21 of 27




USDA/OIG-A/50601-0013-Ch                     Page 53
Exhibit B – Agency Response
                              Exhibit B – Page 22 of 27




USDA/OIG-A/50601-0013-Ch                     Page 54
Exhibit B – Agency Response
                              Exhibit B – Page 23 of 27




USDA/OIG-A/50601-0013-Ch                     Page 55
Exhibit B – Agency Response
                              Exhibit B – Page 24 of 27




USDA/OIG-A/50601-0013-Ch                     Page 56
Exhibit B – Agency Response
                              Exhibit B – Page 25 of 27




USDA/OIG-A/50601-0013-Ch                     Page 57
Exhibit B – Agency Response
                              Exhibit B – Page 26 of 27




USDA/OIG-A/50601-0013-Ch                     Page 58
Exhibit B – Agency Response
                              Exhibit B – Page 27 of 27




USDA/OIG-A/50601-0013-Ch                     Page 59
Informational copies of this report have been distributed to:

Under Secretary for Rural Development                                          (1)
Under Secretary for Natural Resources and Environment                          (1)
Under Secretary for Research, Education and Economics                          (1)
Under Secretary for Farm and Foreign Agricultural Services                     (1)
Agricultural Research Service
       Director, Financial Management                                          (4)
Farm Service Agency
       Director, Operations Review and Analysis Staff                          (3)
Rural Development
       Director, Financial Management Division,
               Operations and Management                                       (8)
Forest Service
       Agency Liaison Officer                                                 (11)
Natural Resources Conservation Service
       Agency Liaison Officer, Operations Management and Oversight Division    (5)
Cooperative State Research, Education and Extension Service
       Chief; Policy, Oversight, and Funds Management Branch;
               Office of Extramural Programs                                   (3)
Office of Budget and Program Analysis
       Associate Director                                                      (1)
U.S. Government Accountability Office                                          (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division                          (1)
Office of Management and Budget                                                (1)
